                      - .

                 OOPERATIVE ADMINISTRATIVE .

                  SUPPORT      PROGRAM
                               UNIT




                      TECHNICAL REPORT I
                      USER ASSEMENT OF SERVICES




          f.t.ICES'




'0


     +-lIi"d3U


OFFICE OF 
             INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                                  JUNE 1989
                           OFFICE OF 
           INSPECTOR GENERAL
 The mission of the Offce of Inspector General (OIG) is to promote the efficiency, effective­
 ness, and integrty of progrms in the United States Deparent of Health and HumanSer- .
. vices (HS). It does this by developing methods to detect and prevent fraud , waste and
 abuse. Created by statute in 1976, thelnspector General keeps both the Secreta and the Con­
 gress fully and curently informed about programs or management problems. and recomme
corrective action. The OIG performs its mission by conducting audits, investigations and in­
spections with approximately 1 200 staff strategically located around the countr.

                   OFFICE OF             ANALYSIS AND 
          INSPECTIONS
This report is produced by the Offce of Analysis and Inspections (OAl), one of the three
major offces within the OIG. The other two are the Office of Audit and the Offce of Investi­
gations. Inspections are conducted in accordance with professional standards developed by
OAL These inspections are typically short-tenn studies designed to determine program effec­
tiveness, effciency, and vulnerability to fraud or abuse.



Theis report was prepared as par of a study designed to 1) provide a user assessment of
CASU services in operational CASUs; 2) give the National CASU Board an overview of the
CASU Progr from a user or customer perspective; and 3) identify the generic strengths and
weakesses that affect the program s workabilty and success. This report is the fIrst of three
technical reports resulting from the study. 

The report was prepared under the direction of Ralph Tunnell , the Regional Inspector General
of Region VI, Offce of Analysis and Inspections. Participating in this project were the follow­
ing people: .

           Chester Slaughter                     National Project Director, Region VI
           George De Luna                        National Lead Analyst, Region VI
          Frank Almendarez                       Support Analyst, Region VI
           Suzanne Murrin                        Program Analyst , Central Offce
         COOPERATIVE ADMINISTRATIVE

           SUPPORT UNIT PROGRAM


                      TECHNICAL REPORT I

                     USER ASSESSMENT OF SERVICES




                          RICHARD P. KUSSEROW

                           INSPECTOR GENERAL





OAI- 06- 89- 00861                                 JUNE 1989
                                 EXECUTIVE SUMMARY



PURPOSE
The purose of this study was to conduct a qualitative user evaluation of the Cooperative
Admnistrative Support Unit (CASU) Program.

Overal inspection ais were to: 1) conduct a user assessment of CASU services in opera­
tional CASUs; 2) provide the national CASU board with an overview of the CASU Program
from a user or customer perspective; and 3) identify the generic strengths and weakesses that
afect the program s workabilty and success. This report was prepared at the reuest of the
national CASU board and staff.

BACKGROUND

The CASU Program is a Government-wide program , sponsored by the President s Council on
Management Improvement (PCMI), which operates under authority of Section 601 of the
Economy Act of 1932. At the national level , the PCMI established a CASU Program National
Board of Directors which sets policy, provides guidance, approves lead agencies and charers
CASUs. In addition , an interagency staff has also been organized to serve as a focal point for
day-to- day operations of the national CASU Program. The local CASU support strcture in­
cludes policy diection from a tenant board of directors, and managerial direction from a lead
agency. The day- to- day operations of the local CASU are supervised by a local CASU direc­
tor.

The CASU Program was established under the concept that local Federal agencies could coop­
eratively combine their resources to share common administrative services at reduced costs
and with better service quality. Under the CASU concept, building tenants jointly shar in es­
tablishing and managing an administrative support unit that provides, on a reimbursable basis,
administrative services commonly needed by its members.

FINDINGS

OVERAL , CURRENT USERS ARE VERY SATISFIED WITH CASU SERVICES AND
PARTICIPATION


       CASU User Satisfaction Is High.

           A strong majority (86 percent) rate overall service quality as excellent to good.

           Most users feel they are getting their money s worth from the CASU.
     Users Are Generally Pleased With CASU Participation.

        Most users (89 percent) say they would stil opt to join the CASU if they had it to
        do over agai. 



        Further, 92 percent say their agency wil likely continue with the CASU in the fu­
        ture.

     CASU Service Effectiveness Indicators Are Positive.

        Overall , 91 percent of users say the CASU has effectively handled their service
        needs.

        Most users (4 of 5) say the CASU promptly handles and effectively resolves any
        service issues or complaints that arse.

        Since the CASU establishment, service accessibilty has either improved or re­
        mained the same for most users.

        The CASU staf are suffciently skiled and trained    to deliver services effectively,
        say 90 percent of users.

        Forty- five percent of users say existing services were modifIed or new services
        were added (34 percent) to better serve their needs.


TH EXTENT OF CASU COST SAVINGS IS UNCERTAIN


     User perceptions var widely about the CASU effect on the costs of services delivered:

        27 percent see costs as decreased;

        27 percent think costs are about the same;

        38 percent say costs have increased.


     Somewhat higher service costs are the top concern users express in rating the specifIc
     CASU services they receive.

     Very few users report achieving dollar savings (14 percent) or full time equivalent
     (F)   staf savings (8 percent).


     Most CASU directors were unable or chose not to provide CASU cost saving esti­
     mates.

        Only 4 of the 10 operational CASUs supplied savings estimates.
           These 4 reported modest cumulative total savings of $1 278, 000 and 15 FTs.

       Most users (52 percent) felt that initial CASU savings were " about the same as
       expected. "

       It appears that lead agency and CASU indiect costs are sometimes absorbed rather
       than biled to users, as is the reported common practice.

       The CASU users view cost savings as very important, though not the sole program
       priority.

       Many potential users (62 percent) say hard evidence on cost savings potential would
       be the top factor that might convince them to join the CASU.


RECOMMENDATIONS


Recovery of Operating Costs

The CASU Program should adopt a policy of full recovery of all operating costs , including in­
diect costs, through charges to users.

Cost Savings

The CASU staff should seek to 1) quickly identify veriiable savings being achieved in exist­
ing CASUs, 2) assure that an accurate and complete cost baseline is established when any new
CASU s are added to the program, 3) establish an effective mechanism to track cost saving ac­
complishments over time, and 4) move to the fullest application of unit cost pricing of ser­
vices in all existing and new CASUs.


COMMENTS ON THE DRAFT REPORT


We shared the draft of our Executive Report on the CASU Program , and the three supporting
technical reports, with the CASU National Board of Directors and the CASU national staff.
They addressed their comments to the recommendations in the Executive Report since these
are compiled from our three supportng technical reports. They generally agree with the re­
port findings and concur, with only minor qualifications, with all our recommendations. The
full text of their comments is included in the appendix of the Executive Report.




                                            . 111

. . .. .. .. .. .. .. .                           ...............................................................
                                 ...................................................................




                                                                                                               TABLE OF CONTENTS

     EXECUTIVE SUMMARY

     PURPOSE


     BACKGROUND


     METHODOLOGY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                              . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


     FINDINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


     OVERALL , CURRENT USERS ARE VERY SATISFIED WITH CASU

     SERVICESAND PARTICIPATION ................................................. 3


                 CASU user satisfaction is high. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                               . . . . . . . . . . . . . . . 3


                 Users are generally pleased with CASU participation. . . . . . . . . . . . . . . . . . . . . . . . . . . . 


                 CASU service effectiveness indicators are positive. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 


     THE EXTENT OF CASU COST SAVINGS IS UNCERTAIN. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                 User perceptions vary widely about the CASU effect on the costs

                 of services delivered                                           . . . . . . . . . . . . . . . . . . . 7


                 Somewhat higher service costs are the top concern users express

                 in rating the specific CASU services they receive. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                 Very few users report achieving dollar or FTE staff savings through
                 CASU participation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         . . . . . . . . . . . . . . . . . . . . 8


                 Most CASU directors were unable or chose not to provide overall
                 estimates of dollar and FTE staff savings achieved. . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                           . . 8


                 CASU users view cost savings as very important , though not the

                 sole program priority


     RECOMMENDATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


     COMMENTS ON THE DRAFT REPORT. . . . .                                                                                                                                     . . . . 10

                                      INTRODUCTION



PURPOSE
The purpose of this study was to conduct a qualitative user evaluation of the Cooperative
Admnistrative Support Unit (CASU) Program.

Overal inspection aims were to: 1) conduct a user assessment of CASU services in opera­
tional CASUs; 2) provide the national CASU board with an overview of the CASU Progr
from a user or customer perspective; and 3) identify the generic strengths and weakesses that
affect the program s workabilty and success. This report was prepared at the request of the na­
tional CASU board and staff.

BACKGROUND

The CASU Program is a Government-wide program , sponsored by the President s Council on
Management Improvement (PCMI), which operates under authority of Section 601 of the
Economy Act of 1932. Under the CASU concept, agencies in multi- tenant, federally occupied
buildigs jointly share in establishing and managing an administrative support unit that pro­
vides, on a reimbursable basis, administrative services commonly needed by its members.

In October 1985, as par of a shared services initiative , the heads of the General Services Ad­
ministration , the Office of Management and Budget, and the Office of Personnel Manage­
ment, issued a joint memorandum to the heads of all Federal agencies introducing and
encouraging support for the CASU Program.

To ensure strong policy support at the national level , the PCMI established a CASU Program
National Board of Directors. The national board sets policy and provides program guidance,
approves lead agencies and charers CASUs. A national interagency staff has also been organ­
ized to serve as a focal point for day-to- day operation of the national CASU Program. The
staff advises the CASU board on policy and program issues and provides technical assistance
in organizing and operating CASUs.

The national board has established a prototype strcture for local CASUs which includes pol­
icy control and direction from a tenant board comprised of CASU service users or potential
users. A lead agency, selected by the tenant board of directors, provides administrative man­
agement support to the CASU in such areas as fInancial management, stafing, personnel ser­
vices, etc. The day- to- day diection and management of the CASU staff is provided by a
CASU diector.
Through marketing and intervention by the national CASU staf, the CASU Program recruits
Federal agencies located in a single building or cluster of buildings to become members of a
local CASU and to parcipate in its development, organization , and management. Recruited
CASU sites underte a feasibilty study to determine if a CASU could successfully operate at
their site, what administrative services their CASU should provide, and how a CASU could
most effectively supply these services.

Once the decision to establish a CASU has been made, its prospective members establish its
operating plans through a series of interagency memorandums of understanding. The national
CASU board reviews these plans and , if appropriate, grants a CASU charer to the local site.

Curent CASUs provide such services as mail, moving and labor, physical fItness, shipping
and receiving, photcopying, personal property management , conference and training room
scheduling, child care, imprest fund and employee assistance programs. These services may
be provided directly by the CASU staff, through shared services arangements from the lead
agency or other CASU paricipating agency or secured through private contracts. By consoli­
dating services, the CASUs expect to provide less expensive, more accessible, and better qual­
ity services. The CASUs also expect to standardize and share administrative systems,
accelerate use of automation , and to improve management information systems.

Currntly, operational CASUs exist at the following locations: Anchorage, Alaska; Atlanta,
Georgia; Chicago, llinois; Cincinnati, Ohio; Cleveland, Ohio; Denver, Colorado; Fort Worth
Texas; Jackson , Mississippi; Indianapolis, Indiana; Kansas City (12th Street), Missouri; Los
Angeles, California; New York City (Javits Building), New York; and, Seattle, Washington.
Additionally, fIve CASUs have been charered at these locations: Boston , Massachusetts;
Fresno, Calfornia; Kansas City (South), Missouri; New York City (Varck Street), New York;
and, Pittsburgh , Pennsylvania.


METHODOLOGY

This inspection is based on a mail survey, on   site strctured interviews and review of selected
background and informational materials provided by the national CASU staff. Our findings
are based on the responses of 80 curent and former CASU users at 13 of the 14 currently char­
tered CASUs which were operational or projected to be operational by the end of the second
quarer of Fiscal Year (FY) 1989.
                                                                             .....




                                                 FINDINGS


This is one of three technical reports prepard in conjunction with our Executive Report on
the CASU Program. The Executive Report, " An Assessment by Users and Loal Offcials,
summarzes the chief findings of our study. The technical reports provide details on our study
fmdings as they relate to thee separte aspects of the CASU Program. This technical report is
 User Assessment of Services. " The other two are "User and Governing Offcial Perceptions
of Loal Management " and "Loal Offcial Perceptions of Policies and Implementation.

    OVERALL, CURRENT USERS ARE VERY SATISFIED WITH C1\StJ SERVICES
    AND PARTICIPATION.

    A.   CASU USER SATISFACTION IS HIGH.

         1. CASU service quality is rated high.

             a. Most users (86 percent) rate the overall quality of CASU services as goo to
                 excellent.
                                              HOW DO YOU RATE
                                             THE OVERALL QUALI

                                              OF CASU SERVICES?


                                                               EXCELlNT (30)-- 45.




                                                                                     VERY POOR (1)­
                                                                                     POOR (1)-- 1.




             b. A strong majority report the 
      fr- 1"   Jwing positive ratings for the specifIc ser­
                 vices they receive:



                       high satisfaction with the CASU service;

                   better service responsiveness or

                   timeliness under the CASU;

                   better service quality under the CASU;

                   improved customer convenience due to the CASU;

                 - goo customer control over service delivery under the CASU;
                 improved overall service availability under the CASU.
             Any user negative ratings for these indicators were very small as a percentage
             of all negative comments, ranging from only 2 to 8 percent of tota.

     2. Most users feel they are getting their money s wonh from the CASU.

                                ARE YOU GE1TING YOUR
                            MONEY' S WORTH FROM THE CASU?
                                                          DEFINrTLY (27)- 39.




B.   USERS ARE GENERALLY PLEASED WITH CASU PARTICIPATION.

     1. Most    users (89 percent) would stil opt to participate in the CASU if they had it
          to do over again.

     2. Most users (92 percent) say their agency wil likely continue parcipating in the
          CASU in the future.
                                 ARE USERS PLEASED WITH
                                   CASU PARTICIPATION?


     DEFINETLY (44)-- 63.                                DEFINETLY (48)- 69.


                                                                                       PROBABLY NOT (1)--1.4%
                                                                                       DEFINITL Y NOT (4)-­
                              . PROBABLY NOT (8)-- 11.                               DONT KNOW (1)--1.
                    PROBABLY (17)-- 24.                                         PROBABLY (15)- 21.



     WOULD YOU DO IT AGAIN?                              WILL YOU STAY IN?


     3. Among the benefits of CASU paricipation most frequently mentioned by cur­
           rent users are:

         a. Improved availabilty of admnistrative services. (12)
         b. Better concentrtion of sta resources on program needs rather than admis­
            trative support. (9)
         c. Improved         service quality and delivery. (7)


     4. Current users say the main strengths of the CASU concept are:
         a. Economies of scale (savings in providing services to multiple users). (42)
         b. Improved and more convenient services. (28)
         c. Increased availabilty of            services. (26)

     5. Curent users say the main weakesses of the CASU concept are:
         a. Lack of control over the services. (16)
         b. The voluntar nature of the program makes it difficult to recruit users. (8)
         c. High costs of CASU services. (7)

     6. Current CASU users offer two main recommendations to the national board and
         staff.

         a. Encourage parent agency support for the CASU program at the national level.
            (11)
         b. Continue to alow for flexibilty in the CASU program strcture.               (5)


C.   CASU SERVICE EFFECTIVENESS INDICATORS ARE POSITIVE.

     1. Overall ,91 percent of the users say the CASU has effectively handled their ser­
         vice needs. Only fIve users indicated their agency s service needs have not been
         met by the CASU.

     2. Most users (about 4 of 5) report that when service issues or complainst arse,              the
         CASU generally handles them promptly and resolves them effectively.
                  ARE SERVICE ISSUES AND COMPLANTS
             HANDLED PROMPTLY AND RESOLVED EFFECTIVELY?

                  YES (49)-- 79. 1 %                                  YES (47)- 78.4%




             cg                        DON'T
                                 NO (3)- 4.
                                               KN (10)- '6.         QDON'T       NO (2)- 3.
                                                                                              KNOW (11)-'8.


         HANDLED PROMPTLY?                                       RESOLVED EFFECTIVELY?

Since the establishment of CASUs, service accessibility has improved (57 per­
cent) or remained the same (37 percent) for most users, with only 6 percent say­
ing accessibilty has worsened.
          SERVICE ACCESSIBILITY UNDER THE CASU




                                                                   MUCH WORSE 1 - 18.
                                                         SOEWT WOE 3 - 4.

a. Due to the CASU' s establishment, new or additional services became avail­
   able to 68 percent of the users.
b. The CASU services are equally available to both large and smal tenants, ac­
   cording to 90 percent of the users.

The CASU staf generally have suffcient skils and training to deliver services
effectively, according to 90 percent of the users.

Service delivery methods and technology have improved for services delivered
by the CASU, according to 56 percent of users.

a. Among the key improvements noted by users are:

       new and better facilities;
       better equipment and procedures;
       more competent and better trned staff;
       a CASU commitment to continuing service improvement.

While 37 percent of users say service delivery methods and technology ar not
improved, very few cite specifIc problems. This could indicate that CASU ser­
vice technology is basically unchanged in many of these cases.

As indicators of CASU servce responsiveness:

a. Forty- five   percent of the users say their CASU has modfIed                        existing   services
   to better serve their needs. Examples of such modifcations include:
                      Mail - method of delivery or frequency or time of delivery was accommo­
                      dated.

                      Labor/moving - degree or type of service needed was accommodated.

                      Copi r - cost per copy contracting was introduced and capacity was in­
                      creased.

               b. Thiry-   four percent of the users report their CASU has added            new   services to

                  better meet their needs.

           7. As an indicator of CASU service expansion potential , 41 percent of the users list
               additional services they need, and, in the majority of cases, state a preference for
               the CASU, rather than their own agency, to provide services.

II.   THE EXTENT OF CASU COST SAVINGS IS UNCERTAIN.

      A.   USER PERCEPTIONS VARY WIDELY ABOUT THE CASU EFFECT ON THE
           COSTS OF SERVICES DEUVERED

           For example: 1) 27 percent report costs decreased; 2) 27 percent report no changes
           in costs; and, 3) 38 percent repon costs increased under the CASU.
                                   CASU EFFECT ON SERVICE COSTS




                                                                                   GRET INCREE (5)- 8.




      B.   SOMEWHAT HIGHER SERVICE COSTS ARE THE TOP CONCERN USERS EX­
           PRESS IN RATING THE SPECIFIC CASU SERVICES THEY RECENE.

           1. Eighty current and former CASU users rated the 164 services they ar receiving
                or have received from the CASU. Their concerns in rating these services in­
                clude:

                a. Twenty- four percent of users, or 40 of the 164 service ratings, say service
                   costs ar somewhat to much higher under the CASU.
          b. Thirteen percent of users, or 21 of the 164 service ratings, say cost effective­
             ness is somewhat to much worse under the CASU.

     2. These two cost concerns comprise half of all user negative ratings of specifIc
          CASU services.

     3. . It should be kept in mind, however, that most users think costs are reduced and
          cost effectiveness is improved for the individual services they get from the
          CASU.

C.   VERY FEW USERS REPORT ACHIEVING DOLLR                   OR FULL TIME EQUIVA­
     LENT (FTE) STAFF SAVINGS THROUGH CASU PARTICIPATION.

     1. Only 11 users (14 percent) indicate some dollar savings, ranging from $1 000 to
          $97, 444 , with an average of about $18, 313.

     2. Twenty users (26 percent) report no savings have been achieved. Forty-fIve (45)
          users or 59 percent did not respond regarding dollar savings.

     3. Only 6 users (8 percent) say that someFT savings were achieved. However,
          21 (28 percent) say no FT savings have been realized. Forty-nine (64 percent)
          did not respond regarding FT savings.

     4. Most of the dollar or FTE savings reported were classifIed as " best estimates
          not based on actual data.

D.   MOST CASU DIRECTORS WERE UNABLE OR CHOSE NOT TO PROVIDE OVER-
     Al ESTIMATES OF DOLLR AND FTE SAVINGS ACHIEVED BY THE CASU
     FROM INCEPTION TO THE FIRST QUARTER OF FY 1989.

     1. Only    4 of the 10 operational CASUs were able to provide rough estimates.
          (These were best estimates, extrapolations, and sometimes contained a mix of
          tangible and intangible savings. ) None of the CASUs said their estimates were
          based on actual data.

     2. Reported total cumulative dollar and FT savings realized at these 4 CASUs:
               Dollar Savings $ 1     278, 000

               FT Savings 15
E.   MOST USERS   PERCENT) FELT THAT INITIAL CASU SAVINGS WERE
                              (52

      ABOUT THE SAME AS EXPECTED.

     Compared with their agency s initial savings expectations, users say achieved savings
     are:

             about the same as expected (52 percent);

             lower than expected (17 percent);

             higher than expected (10 percent);

             don t know (21 percent).


F.   IT APPEARS THAT LEAD AGENCY AND CASU INDIRECT COSTS ARE SOME­
     TIMES ABSORBED RATHER THAN BILLED TO USERS, AS IS THE REPORTED
     COMMON PRACTICE.

     While most users (62 percent) think users get biled for lead agency and CASU indi­
     rect costs, 11 percent of users say the lead agency or CASU sometimes absorb these
     costs and 24 percent do not know.

G.   CASU USERS VIEW COST SAVINGS AS VERY IMPORTANT, THOUGH NOT THE
     SOLE PROGRAM PRIORIT:

     1. A slight majority (54 percent) of the users say the CASU Program should give
           equal priority  to both 1) achieving cost savings through consolidated service de­
           livery, and 2) improving the delivery of administrative services.

     2. However, 29 percent of the users say the program s top priority should be im­
           proved delivery of administrative services, while 16 percent say the program
           top priority should be achieving cost savings.

H.   MAN                     PERCENT) SAY HARD EVIDENCE ON COST SAV­
                  POTENTIAL USERS   (62

     INGS POTENTIAL WOULD BE THE TOP FACTOR THAT MIGHT CONVINCE
     THEM TO JOIN THE CASU.




                                          . 9

                                 RECOMMENDATIONS

Recovery of Operating Costs

The CASU Program should adopt a policy of full recovery of all operating costs, including in­
diect costs, though charges to users.

It would appear to serve the best long-term interests of both users and the CASU Program to
seek a full identifIcation and recovery of the total costs of CASU operations through user bil­
ings.

Cost Savings

The CASU staf should seek to 1) quickly identify veriiable savings being achieved in exist­
ing CASUs, 2) assure that an accurate and complete cost baseline is established when any
new CASUs are added to the program, 3) establish an effective mechanism to track cost sav­
ing accomplishments over time, and 4) move to the fullest application of unit cost pricing of
services in al existing and new CASUs.



COMMENTS ON THE DRAFT REPORT


We shared the draft of our Executive Report on the CASU Program , and the three supporting
technical reports, with the CASU National Board of Directors and the CASU national staff.
They addressed their comments to the recommendations in the Executive Report since these
are compiled from our three supporting technical reports. They generally agree with the re­
port findings and concur, with only minor qualifications, with all our recommendations. The
full text of their comments is included in the appendix of the Executive Report.
